IN THE SUPREME COURT OF THE UNITED STATES

RAZZOUK, SASSINE
Petitioner
vs.

No:

21-0058

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
July 19, 2021
cc:
MICHAEL KEITH BACHRACH
LAW OFFICE OF MICHAEL K.
BACHRACH
224 WEST 30TH STREET
SUITE 302
NEW YORK, NY 10001
STEVE ZISSOU
STEVE ZISSOU & ASSOCIATES
42-40 BELL BOULEVARD
SUITE 302
BAYSIDE, NY 11361

